<html>
<title> - THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY: EXAMINING PRIORITIES AND EFFECTIVENESS OF THE NATION'S SCIENCE POLICIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       THE OFFICE OF SCIENCE AND
                      TECHNOLOGY POLICY: EXAMINING
                    PRIORITIES AND EFFECTIVENESS OF
                     THE NATION'S SCIENCE POLICIES
=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 20, 2012

                               __________

                           Serial No. 112-91

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-728                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                            C O N T E N T S

                        Wednesday, June 20, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

Statement by Representative Jerry F. Costello, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..
    Written Statement............................................    16

                               Witnesses:

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology, and Director of the Office of Science and 
  Technology Policy
    Oral Statement...............................................    19
    Written Statement............................................    21

Discussion.......................................................    36

             Appendix 1: Answers to Post-Hearing Questions

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology, and Director of the Office of Science and 
  Technology Policy..............................................    67

             Appendix 2: Additional Material for the Record

Prepublication Copy: Managing for High-Quality Science and 
  Engineering at the NNSA National Security Laboratories: 
  National Research Council......................................    90


                         THE OFFICE OF SCIENCE


                         AND TECHNOLOGY POLICY:


                        EXAMINING PRIORITIES AND


                          EFFECTIVENESS OF THE


                       NATION'S SCIENCE POLICIES

                              ----------                              


                        WEDNESDAY, JUNE 20, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 74728.001

[GRAPHIC] [TIFF OMITTED] 74728.002

[GRAPHIC] [TIFF OMITTED] 74728.003

[GRAPHIC] [TIFF OMITTED] 74728.004

[GRAPHIC] [TIFF OMITTED] 74728.005

[GRAPHIC] [TIFF OMITTED] 74728.006

[GRAPHIC] [TIFF OMITTED] 74728.007

[GRAPHIC] [TIFF OMITTED] 74728.008

[GRAPHIC] [TIFF OMITTED] 74728.009

[GRAPHIC] [TIFF OMITTED] 74728.010

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order, and I say good morning, and 
welcome to today's hearing entitled ``The Office of Science and 
Technology Policy: Examining Priorities and Effectiveness of 
the Nation's Science Policies.''
    In front of you are packets containing the written 
testimony--and thank you for your testimony ahead of time--
biography and Truth in Testimony disclosure of today's witness, 
Dr. John Holdren.
    We will have our opening statements, and I will begin with 
my opening statement.
    Dr. Holdren, thank you for joining us today. In your dual 
role as the President's Science Advisor and as Director of the 
Office of Science and Technology Policy, you have the 
President's ear, and that is very important, and as such, you 
have a real, far-reaching influence on this Administration's 
direction in science and technology, probably for this 
Committee, not a more important position on the Hill.
    We may not always agree with the advice the Director 
provides to the President, but science and technology have 
played a vital role in the making of this Nation and is going 
to continue to fulfill that role in the future, and as such, I 
doubt you would find anyone here who would challenge the need 
for science and need for technology advice in this White House 
or in any White House. Throughout the history, that advice has 
come through both informal and formal methods.
    The Office of Science and Technology Policy that we know 
today is a result of the National Science and Technology 
Policy, Organization, and Priorities Act of 1976, which 
formally created both the office and established the roles of 
the Director. The House Committee on Science and Technology was 
instrumental in the passage of this Act, and it is our 
responsibility to make sure that the office continues to 
function in a way that is beneficial to American citizens.
    And while Directors historically have joined us annually to 
review the Administration's budget request and have appeared 
before us on specific issues from time to time, this is the 
first time this Committee has met to focus primarily on 
oversight of OSTP since it was created in statute.
    In addition to reviewing its responsibilities, operations, 
and management, we will also look at its function in shaping 
our Nation's policies. It should come as no surprise that I 
remain concerned about a number of this Administration's 
science and technology policy issues, ranging from an 
unprecedented emphasis on clean energy at the expense of other 
priorities to a larger focus on applied research at the expense 
of basic scientific research to the lack of a clearly 
identified and compelling long-term mission for human 
spaceflight. Further, there are other areas still awaiting 
action from OSTP and the Administration. These include 
transparency and data access issues, a position on the transfer 
of the Joint Polar Satellite System from NOAA to NASA, a 
position statement on INKSNA, and a strategic plan for STEM 
Education.
    Dr. Holdren, I know you take your role seriously, and as 
the House Committee responsible for Science, Space, and 
Technology, we also take our oversight role seriously. Today, 
we look forward to receiving your testimony and learning about 
the current organization and priorities of OSTP and the 
Administration as part of this Committee's oversight 
responsibilities.
    I thank you, and I yield back my time.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    Dr. Holdren, thank you for joining us today. In your dual role as 
the President's Science Advisor and as Director of the Office of 
Science and Technology Policy, you have the President's ear, and as 
such, you have a real, far-reaching influence on this Administration's 
direction in science and technology.
    We may not always agree with the advice the Director provides to 
the President, but science and technology have played a vital role in 
the making of this Nation and will continue to fulfill that role in the 
future. As such, I doubt you would find anyone here who would challenge 
the need for science and technology advice in any White House. 
Throughout U.S. history, that advice has come through both informal and 
formal methods.
    The Office of Science and Technology Policy (OSTP) that we know 
today is a result of the National Science and Technology Policy, 
Organization, and Priorities Act of 1976 (P.L. 94-282), which formally 
created both the Office and established the roles of the Director. The 
House Committee on Science and Technology was instrumental in the 
passage of this Act, and it is our responsibility to make sure that the 
Office continues to function in a way that is beneficial to American 
citizens. While Directors historically have joined us annually to 
review the Administration's Budget Request and have appeared before us 
on specific issues from time to time, this is the first time this 
Committee has met to focus primarily on oversight of OSTP since it was 
created in statute.
    In addition to reviewing OSTP's responsibilities, operations, and 
management, we will also look at its function in shaping our Nation's 
policies. It should come as no surprise that I remain concerned about a 
number of this Administration's science and technology policy issues, 
ranging from an unprecedented emphasis on clean energy at the expense 
of other priorities to a larger focus on applied research at the 
expense of basic scientific research to the lack of a clearly defined 
and compelling long-term mission for human space flight. Further, there 
are other areas still awaiting action from OSTP and the Administration. 
These include transparency and data access issues, a position on the 
transfer of the Joint Polar Satellite System (JPSS) from NOAA to NASA, 
a position statement on INKSNA, and a Strategic Plan for STEM 
Education.
    Dr. Holdren, I know you take your role seriously, and as the House 
Committee responsible for Science, Space, and Technology, we also take 
our oversight role seriously. Today, we look forward to receiving your 
testimony and learning about the current organization and priorities of 
OSTP and the Administration as part of this Committee's oversight 
responsibilities.
    Thank you, and I yield back my time.

    Chairman Hall. At this time I recognize Ms. Johnson for her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. We are pleased to have the second hearing with Dr. 
Holdren at the Committee.
    As you know, every year we invite the Director of the 
Office of Science and Technology Policy to appear before the 
Committee to help us understand not just that year's R&D budget 
but others as well.
    We live in an increasingly complex world, and the 
challenges we face will be both impacted by and hopefully 
alleviated by science and technology. As Americans, we should 
celebrate the fact that a highly respected scientist such as 
Dr. Holdren has the ear of the President and is truly part of 
his inner circle of advisors on matters of science and 
technology. We in Congress also can benefit from good advice on 
matters of science and technology policy, and I am looking 
forward to your testimony today.
    The truth is that OSTP has been asked to do a lot by both 
Congress and the President. In addition to your more visible 
initiatives, I know that you have to carry out necessary 
interagency coordination, a job that probably goes 
underappreciated and undervalued by all of us. The work of OSTP 
staff helps to minimize unnecessary duplication in research and 
development programs across the government and ensure that 
significant research gaps are addressed.
    Dr. Holdren, you have been asked to testify about the 
structure, function and funding of your office, as well as the 
two hats you wear as both Science Advisor to the President and 
Director of the Office of Science and Technology Policy. You 
face many challenges, some of which you inherited, such as the 
NOAA satellite program, and others that are more recent, such 
as the arm-twisting you probably had to do to get agencies to 
complete their scientific integrity policies. I think we forget 
sometimes that your actual authority is limited and that much 
of what you accomplish is through your leadership, persuasion 
and persistence.
    As you know, I care deeply about the need to ensure that we 
remain competitive in a challenging world economy as well as 
improve the quality of life for all our citizens. Research and 
innovation are essential ingredients of any effort to meet 
those two goals, as is STEM education. You have a number of 
initiatives underway related to STEM education, and I would 
like to hear how those are faring and any issues that you are 
facing.
    With respect to research and innovation, I would like to 
hear about your efforts to promote innovation and to move new 
technologies towards commercialization. I know that the 
Administration has a number of initiatives underway in that 
regard, such as the Startup America Initiative, and I would 
like to get your assessment of how well those initiatives are 
working and what additional steps may be needed.
    And finally, in addition to hearing about your key 
priorities and goals for your office, I would like to hear what 
you might need from Congress, whether it is related to a 
general function of your office or to a specific goal or task. 
You have an important responsibility, and we want you to 
succeed.
    Dr. Holdren, I look forward to your testimony and I yield 
back the remainder of my time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Hall, for holding this hearing and wecome, Dr. 
Holdren, to the Committee for the second time this year. As you know, 
every year we invite the OSTP Director to appear before the Committee 
to help us understand not just that year's R&D budget request but also 
your office's role in the federal R&D enterprise.
    We live in an increasingly complex world, and the challenges we 
face will be both impacted by and--hopefully--alleviated by science and 
technology. As Americans, we should celebrate the fact that a highly 
respected sceintist such as Dr. Holdren has the ear of the President 
and is truly part of his inner circle of advisors on matters of science 
and technology. We in Congress also can benefit from good advice on 
matters of science and technology policy, and so I am looking forward 
to your testimony today.
    The truth is that OSTP has been asked to do a lot by both Congress 
and the President. In addition to your more visible initiatives, I know 
that you have to carry out necessary interagency coordination--a job 
that probably goes underappreciated and undervalued by all of us. The 
work of OSTP staff helps to minimize unnecessary duplication in R&D 
programs across the government and ensure that significant research 
gaps are addressed.
    Dr. Holdren, you have been asked to testify about the structure, 
function, and funding of your office, as well as the two hats you wear 
as both Science Advisor to the President and Director of OSTP. You face 
many challenges, some of which you inherited, such as the NOAA 
satellite program, and others that are more recent, such as the arm-
twisting you probably had to do to get agencies to complete their 
scientific integrity policies. I think we forget sometimes that your 
actual authority is limited and that much of what you accomplish you do 
through leadership, persuasion, and persistence.
    As you know, I care deeply about the need to ensure that we remain 
competitive in a challenging world economy as well as improve the 
quality of life for all our citizens. Research and innovation are 
essential ingredients of any effort to meet those two goals, as is STEM 
education. You have a number of initiatives underway related to STEM 
education, and I would like to hear how those are faring and any issues 
that you are facing.
    With respect to research and innovation, I would like to hear about 
your efforts to promote innovation and to move new technologies toward 
commercialization. I know that the Administration has a number of 
initiatives underway in that regard, such as the Startup America 
Initiative, and I would like to get your assessment of how well those 
initiatives are working and what additional steps may be needed.
    Finally, in addition to hearing about your key priorities and goals 
for your office, I'd like to hear what you might need from Congress, 
whether it's related to a general function of your office or to a 
specific goal or task. You have an important responsibility, and we 
want you to succeed.
    Dr. Holdren, I look forward to your testimony and I yield back the 
remainder of my time.

    Chairman Hall. I thank you, Ms. Johnson.
    At this time, if there are Members who have opening 
statements, they will be added to the record.

Prepared Statement of Subcommittee on Space and Aeronautics Chair Jerry 
                              F. Costello
[GRAPHIC] [TIFF OMITTED] 74728.048

[GRAPHIC] [TIFF OMITTED] 74728.049

[GRAPHIC] [TIFF OMITTED] 74728.050

    And at this time, I would like to introduce our witness. 
Dr. John Holdren is Assistant to the President for Science and 
Technology, Director of the White House Office of Science and 
Technology Policy, and Co-Chair of the President's Council of 
Advisors on Science and Technology. Prior to joining the 
Administration, he taught at Harvard and was Director of the 
Woods Hole Research Center. Chairman, as our witness should 
know, spoken testimony is limited to five minutes, but you are 
a very important and valuable witness. We will be a little more 
lenient with that with you if you need such, and I say that; if 
I didn't say it, Ms. Johnson would insist on it, so it is 
easier for me just to take that position, so we are going to be 
fair with you is what I am trying to tell you. After that, the 
Members are going to have five minutes each to ask questions 
and the Chair is able to provide some flexibility, as I said, 
as you are the only witness today, Doctor. I thank you for your 
testimony.
    Reminding Members of the Committee that rules limit our 
questioning to five minutes, and I surely will adhere to that.
    We recognize you at this time while I look for my 
testimony.

               STATEMENT OF DR. JOHN P. HOLDREN,

             ASSISTANT TO THE PRESIDENT FOR SCIENCE

              AND TECHNOLOGY, AND DIRECTOR OF THE

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Mr. Holdren. Chairman Hall, Ranking Member Johnson, Members 
of the Committee, I am pleased to be here with you today to 
discuss the organization that I lead in the Executive Office of 
the President, namely the Office of Science and Technology 
Policy.
    As you know, science, technology, and innovation have been 
at the core of the American success story since the days of the 
Founding Fathers. Advances in agronomy, electrification, 
mechanized transportation and wireless communication, among 
others, have each in their time brought waves of economic 
growth, generated new opportunities industries and jobs while 
also raising policy challenges. It was in recognition of the 
importance of these domains and challenges that Congress in 
1976 created OSTP to advise the President on the scientific, 
engineering and technological aspects of the issues before him 
and to help coordinate, lead and develop budgets for federal 
R&D programs.
    Today, OSTP's work is accomplished by a staff of about 100 
people spread across four divisions and the Director's Office. 
Almost 90 percent of these are science and technology 
professionals, many of them detailed to us from agencies. This 
diversity of talent is essential, given the scope of the 
intellectual terrain that we cover and the wide range of our 
oversight, coordination and support functions, which include 
running the National Science and Technology Council and the 
major interagency initiatives that fall under it, for example, 
the U.S. Global Change Research Program and the National 
Nanotechnology Initiative, as well as supporting the 
President's Council of Advisors on Science and Technology in 
the development of its reports for the President.
    I have submitted for the record a detailed summary of 
OSTP's activities, and in my brief remarks this morning, I will 
highlight just a few of these.
    First, reflecting the Administration's strong focus on jobs 
and the economy, OSTP has been active in efforts to leverage 
science and technology for economic growth. We partnered with 
the Council of Economic Advisers and the National Economic 
Council to develop the Administration's Strategy for American 
Innovation, and we launched such jobs-focused initiatives as 
Startup America, focused on small businesses and entrepreneurs, 
the Advanced Manufacturer Partnership, which brings together 
universities, industry and others to invest in emerging 
technologies that have the potential to create high-quality 
domestic manufacturing jobs, and most recently, U.S. Ignite, 
aimed at accelerating availability to U.S. users of ultrafast 
Internet and new products and services based on it.
    Second, in support of the Administration goal that the 
United States lead the world in clean energy technology, we 
have prioritized budgetary support for basic and applied 
research in this important domain and have pushed the 
development of advanced materials, in part through the 
Materials Genome Initiative, which is another public-private 
partnership combining the comparative advantages of both 
sectors.
    Third, OSTP has very actively supported science, 
technology, engineering and math education. We worked with the 
President and the Domestic Policy Council to launch Educate to 
Innovate, a public-private partnership to improve K-12 STEM 
education that has attracted more than $700 million in 
corporate and philanthropic commitments to work in classrooms 
across the country to improve instruction in science and 
mathematics and Change the Equation, a nonprofit organization 
that is mobilizing the business community to improve STEM 
education across the United States. And we have been 
aggressively addressing STEM education tasks specified in the 
America COMPETES Reauthorization Act, including completion of a 
comprehensive inventory of federal STEM education programs.
    Fourth, I want to mention OSTP's leading role with other 
White House offices in the implementation of the President's 
Open Government Initiative. Under the leadership of U.S. Chief 
Technology Officer, Todd Park, we have been opening the 
workings of government to the American people and focusing 
heavily on making government data a driver of private-sector 
innovation and job creation.
    In closing, let me simply say that with continuing support 
from our partners in Congress, OSTP is working every day to 
ensure that the policies and proposals emanating from the 
Executive Branch are informed by the most up-to-date and 
objective insights about the relevant science and technology 
and to strengthen the U.S. science, technology and innovation 
enterprise and the benefits to the Nation that flow from it.
    I look forward to continuing to work with this Committee to 
these ends, and I will be pleased to answer any questions that 
the Members may have. Thank you.
    [The prepared statement of Mr. Holdren follows:]
    [GRAPHIC] [TIFF OMITTED] 74728.011
    
    [GRAPHIC] [TIFF OMITTED] 74728.012
    
    [GRAPHIC] [TIFF OMITTED] 74728.013
    
    [GRAPHIC] [TIFF OMITTED] 74728.014
    
    [GRAPHIC] [TIFF OMITTED] 74728.015
    
    [GRAPHIC] [TIFF OMITTED] 74728.016
    
    [GRAPHIC] [TIFF OMITTED] 74728.017
    
    [GRAPHIC] [TIFF OMITTED] 74728.018
    
    [GRAPHIC] [TIFF OMITTED] 74728.019
    
    [GRAPHIC] [TIFF OMITTED] 74728.020
    
    [GRAPHIC] [TIFF OMITTED] 74728.021
    
    [GRAPHIC] [TIFF OMITTED] 74728.022
    
    [GRAPHIC] [TIFF OMITTED] 74728.023
    
    [GRAPHIC] [TIFF OMITTED] 74728.024
    
    [GRAPHIC] [TIFF OMITTED] 74728.025
    
    Chairman Hall. I thank you, sir, and I will start out with 
some questions for you.
    OSTP released a fact sheet highlighting some of the 
President's energy priorities, and the opening sentence of that 
fact sheet states that ``We now face a make-or-break moment for 
the middle class and those trying to reach it.'' However, it is 
unclear whether the President's energy agenda is actually good 
for the middle class. The Administration is working to advance 
these policies, policies to restrict oil and gas exploration 
and production, and rejected the Keystone pipeline, which would 
enhance domestic energy security; an avalanche of EPA 
regulations on coal plants, on refineries, on automobiles and 
numerous other industries that ultimately will raise energy 
prices for all Americans; and a ``Clean Energy Standard'' that 
would mandate Americans buy electricity from more expensive and 
less reliable sources such as wind and solar power, which are 
both good but not as reliable.
    How does the ``regulate at any cost'' approach to energy 
policy benefit the middle class and the overall American 
community, not just the middle class but all of us? Explain 
that to us, if you would, sir.
    Dr. Holdren. Well, first of all, Mr. Chairman, the 
President and the Administration have what the President has 
described as an all-of-the-above energy strategy in which 
development of our domestic resources of oil and gas and coal 
plays an important part, nuclear energy plays an important 
part, renewable energy, which you have mentioned, plays an 
important part, and increasing energy efficiency plays an 
important part. We recognize that we need all of these energy 
options to secure our energy future, and we are working to 
enable all of them and lift all of them to their highest 
potential. We do not have a policy of regulation no matter what 
the cost. In fact, regulations are reviewed very carefully in 
light of the science evidence that is available before they are 
put forward, and I think we have been doing a good job in this 
Administration of only putting forward regulations that are 
strongly based in solid science. It is certainly our intention 
to provide an energy future in which the United States imports 
less energy, therefore pays less to other countries for its 
imported energy, and relies on a wide diversity of domestic 
energy sources to provide the affordable and reliable energy 
supply that our economy needs, that our consumers need, 
including, of course, the middle class.
    Chairman Hall. Well, I don't totally agree with you there, 
and I think some of his indications, evidence of disdain for 
energy, he certainly declared war on agriculture early and got 
around to energy. We have enough energy and enough energy 
access to be selling energy rather than buying it. I think it 
is kind of a sad situation when we are in the situation we are 
in here.
    In July or August--I accept what statements you made. I 
just don't agree with it. In July and August, NASA's Commercial 
Crew Program is going to select the next round of companies for 
the third phase of domestic development known as the Commercial 
Crew Integrated Capability Program. NASA plans to give $300 
million to $500 million each to two and possibly three 
companies using Space Act Agreements instead of more typical 
government contracts, and according to NASA's Office of General 
Council, Space Act Agreements don't permit NASA to impose 
design or safety requirements on the contracts.
    With regard to NASA's use of Space Act Agreements on the 
Commercial Crew Program, how can we be assured that NASA is 
developing safe systems if it is prohibited from levying any 
design requirements, prohibited from demanding performance 
tests from the companies?
    Dr. Holdren. Before I turn to that NASA question, let me 
just mention, Mr. Chairman, that our energy imports have been 
sharply declining under this Administration. We are moving in 
exactly the direction that you also endorse, which is moving 
toward importing less, and I think that is very beneficial.
    On the NASA question, it is my understanding that NASA has 
in fact been able to apply its International Space Station 
visiting vehicle requirements to the cargo transportation 
development efforts that have been taking place. The contracts 
that will be awarded in the next phase of commercial cargo and 
commercial crew will also very clearly allow NASA to specify 
safety requirements and to oversee them. So I am certainly 
confident, the President is confident that we will continue to 
maintain NASA oversight of safety in these operations.
    Chairman Hall. I surely hope so, but my time is expired.
    I now recognize Ms. Johnson for five minutes.
    Ms. Woolsey. You forgot to look to see who is over here--
Ms. Woolsey.
    Chairman Hall. I am going to make about a five-minute 
speech about Ms. Woolsey. We are going to lose her, and I am 
going to miss her. I recognize you, and if Ms. Johnson is here, 
I would recognize her.
    Ms. Woolsey. Thank you very much, Mr. Chairman.
    Chairman Hall. I have to be more careful.
    Ms. Woolsey. Yes, you do, more discerning about your women.
    So Dr. Holdren, thank you for all you do. We put a lot of 
importance on your office and we expect a lot, and we get a 
lot.
    How is the United States stacking up as compared to the 
rest of the world in our support for science and technology and 
the policies that we put in place? And feel free to tell us 
where we could do better.
    Dr. Holdren. Well, first of all, I would say that the 
United States continues to lead the world in science, 
engineering and innovation across a very wide array of crucial 
fields of fundamental research and applied research. The United 
States leads the world. We remain by far the largest funder of 
research and development in the world. The sum of our 
expenditures on R&D in the public and private sector together 
is over $400 billion a year. That is in the vicinity of 30 
percent of all of the world's expenditures on R&D. We continue 
as well to lead the world in space, although sometimes the 
contrary is asserted. Our planetary exploration programs have 
absolutely no peer. We have missions on the way to or at seven 
out of the eight officially designated planets and more. The 
Voyager is now reaching the edge of the solar system; we have 
missions to asteroids. No one is even close.
    When you look at the firsts in space, some people say gee, 
China is overtaking us. Well, China just put its first woman in 
space a few days ago. We put our first woman in space, Sally 
Ride, in 1983. One can go on through the list. China is talking 
about maybe being able to land someone on the moon after 2020. 
We did it in 1969.
    The one area where I think we need to work much harder is 
one I have already mentioned, the area of STEM education, where 
the United States that used to lead the world in most indices 
of performance in STEM education has now fallen to the middle 
of the pack. That is a bad trend and one we are working very 
hard across a wide variety of fronts to help remedy.
    At the same time, I would argue that across the board, we 
cannot afford to be complacent. One of the areas that is 
clearly crucial in linking science and technology and 
innovation to the economy is the translation of discovery from 
laboratories in research universities and our great national 
laboratories, accelerating the translation of those discoveries 
into commercial products and services and new processes, and 
there the American Manufacturing Partnership, the Materials 
Genome Initiative, the Startup America Initiative are all aimed 
at accelerating and making more efficient the processes by 
which we turn scientific and engineering advance into economic 
advantage.
    Ms. Woolsey. So because we are increasingly on the cutting 
edge of science and there is intersections of multiple 
disciplines, what are the challenges that you face involving 
different federal agencies, academia and industry in the 
efforts of our country to go forward with science and 
technology?
    Dr. Holdren. Well, thank you for that question. Let me 
answer it in two parts. First is the question of interagency 
engagement and coordination, and there, as mentioned at some 
length in my testimony, OSTP has the responsibility and I have 
the responsibility as its Director to oversee and lead efforts 
to coordinate science, technology and innovation initiatives 
that cross agency boundaries, and for that purpose, we have the 
National Science and Technology Council, which is nominally 
chaired by the President but in practice usually I chair it. It 
has five standing committees, one on science, one on 
technology, one on STEM education, one on national security and 
international affairs, and one on environment, natural 
resources and sustainability. Under those standing committees 
are many subcommittees. This entity is exceedingly active, and 
the departments and agencies are stepping up and participating 
energetically in cooperative efforts to build these interagency 
initiatives that have to draw on the competencies and the 
resources of the wide range of agencies that we have engaged. 
USGRCP, the Global Change Research, Program, for example, has 
13 agencies engaged. Similarly, National Nanotechnology 
Initiative, the Networking and Information Technology R&D 
Initiative both have large numbers of agencies and they are 
stepping up. Even in tight budget times, they understand that 
we cannot afford to ignore these crucial interagency 
collaborations.
    With respect to the private sector and the academic sector, 
the other part of your question, it is really remarkable and 
inspiring to me the extent to which private companies and 
universities are stepping up. Folks from coalitions of private 
companies and universities are in my office almost every day 
asking how they can help, how they can do more, and we have 
engaged them across the range of these partnerships that I have 
already mentioned. I think the private sector is particularly 
interested in being sure, number one, that we maintain the 
foundation of basic research on which the private sector needs 
to draw for the research and development of a more applied 
nature that they primarily undertake. They are also very 
interested in helping with and helping us maintain our emphasis 
on STEM education because they are well aware of the need to 
maintain the pipeline of the next generation of innovators, 
inventors, makers, discoverers but also the skilled workforce 
that they need across the board in our high-tech industries in 
order to continue to compete and succeed.
    Ms. Woolsey. Thank you, Mr. Chairman. My time is up.
    Chairman Hall. The gentlelady's time is expired.
    I recognize Mr. Rohrabacher, the gentleman from California, 
for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I am noticing that the Department of Energy in their 
nuclear program still seems to be focused on light-water 
reactors, and I would like to ask you your view on that, and it 
seems that what we have been doing, at least from what I can 
see from budget requests, that the DOE is basically going from 
25 percent of its nuclear energy program aimed at the fact-
spectrum reactors and the new high-temperature gas-cooled 
reactors. We have been spending 25 percent of our research 
money on those and now it is going down to 15 percent while the 
spending on light-water reactors, which is essentially old 
technology, is being increased in the budget requests. Is this 
a matter of policy coming out of the Administration?
    Dr. Holdren. Well, let me say first of all that the light-
water reactor investments that the DOE is making are not 
investments in old technology. They are investments in advanced 
light-water reactor technology including modular light-water 
reactors, which we think have an enormous potential to 
contribute not only to energy supply in this country but to a 
substantial export market.
    Mr. Rohrabacher. Basically it is an old concept but a new 
approach. Is that a----
    Dr. Holdren. When you say it is an old concept----
    Mr. Rohrabacher. It is 60, 70 years old.
    Dr. Holdren [continuing]. Congressman Rohrabacher, with 
respect, fast-spectrum reactors are also a very old concept and 
have been explored and deployed for a very long time. We are of 
the view that if you want nuclear energy to be an expanding 
contributor to low-emission energy supply in this country in 
the near future, that is going to happen largely on the basis 
of advanced light-water reactors, and we need to make sure that 
succeeds in order to provide a continuing base----
    Mr. Rohrabacher [continuing]. Then will leave us with 
reactors rather than the new reactors that I am referring to 
that would somewhat solve the nuclear-waste problem or at least 
from many scientists are telling us that as compared to the 
light-water reactors that you are now suggesting that you 
approve of in that direction. Would they not lead the same 
nuclear-waste problem that we have?
    Dr. Holdren. First of all, I approve of light-water 
reactors of advanced varieties, and the Secretary of Energy 
does for the next phase. We have a multiphase----
    Mr. Rohrabacher. Would those reactors that are you now 
approving for the next phase leave us with the same nuclear-
waste problem that we have been having so much trouble dealing 
with?
    Dr. Holdren. The problem would be the same if we didn't 
take steps to solve it but----
    Mr. Rohrabacher. Unless we focus on a completely new 
approach in which 97 percent of the waste is consumed rather 
than having so much left over.
    Dr. Holdren. We are, Congressman, focusing on research and 
development on those new approaches looking for possibilities 
that would help us----
    Mr. Rohrabacher. You are focusing on it, but you are 
decreasing the spending on that and increasing the spending on 
the nuclear program that actually leaves us with the same old 
problems.
    I would like to shift this now, because I only have a 
couple minutes here. It is very clear in the Appropriations Act 
of 2011 that we have, that Congress has directed the 
Administration not to be cooperating on science projects with 
China. We have the world's human rights abuser, a country that 
still murders religious believers, a country that its 
government has mandated a massive technology theft program 
towards our country and is using that technology that they are 
stealing with us to try to leapfrog us in a number of 
technological areas. Are you--is your office complying with 
this law that is suggesting that you should not be engaged in 
cooperating with the Chinese on scientific matters?
    Dr. Holdren. Congressman Rohrabacher, the current law does 
not say that we should not be cooperating with China. It says 
that when we do, we must notify the Congress 14 days in advance 
and assure the Congress that we are not in the course of this 
cooperation surrendering national security secrets or corporate 
secrets or dealing with people who are directly involved with 
human rights violations.
    Mr. Rohrabacher. Well, the GAO doesn't agree with you. I 
will quote a GAO report. ``The plain meaning of Section 1340 is 
clear. The OSTP may not''--and this is a quote from the GAO 
here--``may not use its appropriations to participate, 
collaborate or coordinate bilaterally in any way with China.'' 
You are suggesting that the GAO is wrong?
    Dr. Holdren. The GAO was right at the time it wrote that. 
That language has been superseded by the subsequent 
appropriations legislation, which clearly specifies that we may 
cooperate with China subject to the conditions that I was 
mentioning, and so we are in complete compliance with the 
current law on that subject.
    Mr. Rohrabacher. Why is it that you feel, this 
Administration feels so compelled to reach out to the world's 
worst human rights abuser that is already in the process of 
stealing so much from us and who we have examples over and over 
again that scientific cooperation has turned into a transfer of 
wealth and technology to our adversary, to what appears to be 
economic if not military and political adversary?
    Dr. Holdren. First of all, the Administration is no admirer 
of the human rights policies in China and when we travel to 
China for whatever purpose, raise the human rights issues with 
them. We also raise with them the issue of the theft of 
intellectual property.
    Mr. Rohrabacher. When you raise issues like that, when you 
go to China, don't your actions speak louder than your words 
because you are there to find ways to cooperate with the people 
who you are now saying we are very concerned about this, now we 
met that responsibility, so let us go do this.
    Dr. Holdren. Actually, Congressman Rohrabacher, the point 
that I make with my interlocutors in China is cooperation in 
which we are engaged, which is cooperation carefully selected 
to be beneficial to us as well as to China, is jeopardized by 
China's human rights abuses and intellectual property theft and 
that if those activities do not stop, that these beneficial 
activities, mutually beneficial activities, will not be able to 
continue. That is an explicit point that I make.
    Mr. Rohrabacher. Thank you very much.
    Chairman Hall. I don't think you are going to get the 
answer that you expected to get, Mr. Rohrabacher. I, too, have 
seen our President bow and scrape to the enemy on many 
occasions.
    The Chairman recognizes Ms. Bonamici for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren, for your testimony and for the work that you do.
    You describe one mission of your office as advising the 
President on the application of science and technology to 
matters of national importance. One matter of serious 
importance in my district and to the Nation more generally is 
the aftermath of the devastating tsunami that hit Japan last 
year. The Oregon coast has beaches and a coastline that thrives 
on tourism and the fishing industry. Oregon is the only State 
where the entire coastline is public. Three weeks ago, a 66-
foot-long dock washed up onto the shore from Japan, and thus 
far it is the biggest piece to land on our shores, but we have 
seen an increase in smaller debris. Scientists at NOAA are 
predicting that more is on the way.
    Last week, I held a roundtable discussion to discuss the 
coordination of efforts to detect, mitigate and clean up the 
debris resulting from the tsunami. It is an effort that 
involves multiple federal agencies but also State and local 
governments and even the public at large. Additionally, the 
cost of the debris removal is looking certain to stretch the 
budgets of our State and local governments. But beyond the 
sheer cost of the debris, the potential for the debris to carry 
invasive species from Japan such as those that were discovered 
on the dock poses a challenge to our scientists who have to 
assess the threat to the marine ecosystems.
    The two other federal agencies that have been working on 
the detection and monitoring from the tsunami are the EPA and 
NOAA. Considering your office's coordination with federal 
agencies on science matters and the potential impact of the 
debris on our coastal ecosystems, where do you see your office 
fitting in to the response effort at a federal level? Please 
describe any efforts that you have taken thus far on this 
issue. Thank you.
    Dr. Holdren. Thank you for that question. My office is, of 
course, advisory and analytical more than operational, and so 
we try to work with the departments and agencies that have 
operational responsibilities to be sure that what they are 
doing is coordinated and consistent with the best 
understandings of science as we know them. We are in close 
coordination in that sense with both NOAA and EPA in their 
responsibilities around the coast including the 
responsibilities for monitoring and responding to what reaches 
us from Japan as a result of that devastating tsunami.
    We have been particularly engaged in my office in 
conducting and overseeing assessments of the levels of 
radioactivity that have reached or could reach the United 
States, and the reassuring thing I can say about that is that 
although our ability to monitor is so good that we are able to 
detect even very tiny concentrations of radioactivity, the 
radioactivity that has, in fact, reached the United States so 
far is all in that very tiny category and does not reach levels 
of public health concern. But we will continue to work with 
NOAA and EPA to monitor particularly that radioactivity aspect 
of what reaches our coast, but also other aspects.
    I will say that I think NOAA, as with many agencies, has 
been struggling with 20 pounds of missions in a 10-pound 
budget, and we all struggle with that challenge today. I think 
NOAA would tell you, if Administrator Lubchenco were here 
today, that while they are working very hard at fulfilling 
these responsibilities, it would be easier to do if they had a 
little more money.
    Ms. Bonamici. I appreciate that, Dr. Holdren, and I must 
say that many people around the table understood that this is 
something unprecedented, and not knowing what and when and 
where the debris will wash up has been challenging.
    In the minute that I have left, would you please discuss 
some of the work that you are doing on increasing STEM 
education? We all understand the importance of it, but could 
you discuss the deficiencies in our skilled workforce and 
promoting STEM education among young people in this country?
    Dr. Holdren. Well, I would mention, since time is short, 
just a couple of things. One is that the President's 2013 
budget proposal calls for $3 billion in programs across the 
government in STEM education, which has a 2.6 percent increase 
over 2012 enacted, and a considerable part of that investment 
is in two specific critical aspects of the education system. 
One is K-12 teacher effectiveness, teacher preparation where we 
are working very hard to prepare 100,000 new high-quality STEM 
ed teachers at the K-12 level over the next decade, and the 
post-secondary STEM education domain is one in which we 
currently lose about 60 percent of the students who enter 
college intending to get a STEM degree, only 40 percent who 
enter do get a STEM degree. And the PCAST, the President's 
Council and Advisors on Science and Technology, among many 
others, has studied this question and we conclude that there 
are two basic reasons for it, both of which we are working to 
fix. One is the math gap where students enter college without 
sufficient math preparation to succeed in college-level 
science, math and engineering courses, and the other is what 
you might call a teaching effectiveness gap, where the 
introductory courses in science, engineering and math are often 
so boring that they drive even very good students into other 
majors. We have a variety of programs addressed at both of 
those problems.
    Ms. Bonamici. Thank you very much, and my time is expired.
    Chairman Hall. The Chair recognizes Mr. Palazzo, the 
gentleman from Mississippi, for five minutes.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Dr. Holdren, I kind of agree with the comments you have 
been saying on STEM education, especially in light of the less 
than 15 percent of Americans actually pursue STEM where other 
countries such as China, more than 50 percent of their youth 
are pursuing STEM education, and Mississippi actually 
recognizes the global implication of this, and through public 
and private contributions, we just recently opened a $30 
million Infinity Science Center with the sole purpose to 
educate, challenge and excite young people to consider studies 
in STEM education and it ties in very well with the affiliation 
with NASA's Stennis Space Center on the role of science and 
math and exploration across history.
    Now, my first question is, as you are probably aware, in 
order to continue buying seats on the Russian Soyuz spacecraft 
to ferry U.S. astronauts to the International Space Station and 
to buy certain engineering services to keep ISS operational, 
the Iran, North Korea, Syria Nonproliferation Act, commonly 
called INKSNA, must be extended beyond the current 2016 
expiration date. Late last year, the House passed an INKSNA 
bill enabling our reliance on the Russians through 2020 but the 
prospects of its enactment would be greatly enhanced if the 
Administration would put forth a policy statement on INKSNA. Do 
you anticipate the White House putting out a position statement 
on INKSNA, and if so, when? And would you agree it would be 
far, far better to address the issue now versus waiting until 
the last moment? And given House passage of the bill, I would 
think the White House would attempt to capitalize on this 
opportunity.
    Dr. Holdren. Well, Congressman Palazzo, I agree with the 
importance of getting a modification to the Iran, North Korea 
and Syria Nonproliferation Act for the purpose you indicate, 
and it is clear that that is going to be required. It is clear 
that sooner is better than later. The Administration has been 
studying the options for just how to modify it, and we'll 
certainly be working closely with the Congress to get that 
issue resolved. I expect that there will be some more specific 
statement forthcoming in the future but we clearly recognize 
the need and we recognize that sooner is better than later.
    Mr. Palazzo. In the near future? Can you give a possible 
timeline?
    Dr. Holdren. I don't want to put a timeline on it, but I 
know a lot of attention is going to it in the Administration. 
It is obviously not mainly my domain, but I expect that there 
will be a close interaction with the Congress on how to fix 
this, and it will happen soon.
    Mr. Palazzo. So you will definitely carry back our concerns 
about sooner better than later?
    Dr. Holdren. I will carry back that concern. And let me 
just add, by the way, to your comment on the science center in 
Mississippi. I have been enormously impressed in my time in 
this job with the importance of science museums, science 
centers, and the connectedness of science centers to some of 
our science-rich agencies and the effectiveness that they have 
in inspiring kids. I have had my own grandchildren into a 
number of these centers in different parts of the country, and 
I can tell you firsthand, it works.
    Mr. Palazzo. Well, they convinced me to buy a brick to help 
fund it.
    A follow-up on Chairman Hall's question where we were 
discussing NASA's use of Space Act agreements in the Commercial 
Crew Program. What recourse does the government have if these 
companies fail to perform or go out of business?
    Dr. Holdren. Well, of course, there is always a risk in any 
public or private enterprise that companies will fail to 
perform. What is happening so far in the commercial space 
operation is extremely encouraging. The companies involved have 
met most or all of their milestones. As you know, the SpaceX 
Falcon 9 rocket and Dragon capsule just pulled off an 
extraordinary first in docking with the International Space 
Station, carrying cargo up there and returning to earth 
bringing cargo and garbage back down. The other competitors are 
I think close on their heels at meeting their milestones. 
Obviously, one can never rule out a failure, a shortfall, but 
so far we are doing well.
    Mr. Palazzo. And last, what, if anything, will NASA own 
after making these expenditures?
    Dr. Holdren. The idea is not for NASA to own something. The 
idea is for the private sector to own something from which NASA 
can purchase services to carry crew and cargo to the 
International Space Station. This is basically an increasing 
privatization of this particular mission of carrying cargo and 
crew to low earth orbit, and we believe that the efficiencies 
obtainable from the private sector and from competition in the 
private sector are going to be a great national benefit in 
which NASA's investments in the early phases are basically a 
public investment in a long-term private enterprise that is 
going to be a great success and that is going to enable us to 
carry out these missions more efficiently and less expensively 
but still very safely.
    Mr. Palazzo. Of course, we don't wish any business to go 
out of business and we want them to succeed, but just say if 
one does, does NASA obtain the intellectual property or the 
hardware created to date? And we can wrap up my time.
    Dr. Holdren. I would have to refer you on that to the legal 
counsel at NASA. I can't answer details what the fate of 
intellectual property might be in the contracts.
    Mr. Palazzo. Thank you.
    Chairman Hall. Does that give you the answer you wanted?
    The Chair recognizes Ms. Edwards from Maryland for five 
minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren, for your testimony and your work today.
    You know, I know, I have heard from the Administration and 
from the President and really can see a commitment even in 
tough fiscal times to the need for our Nation to invest in 
innovation. It is very clear in the President's speech last 
week. He talked rather extensively about the importance of 
investing in basic research and innovation and technology and 
advanced manufacturing. So I have a question as to how we 
decide what our priorities are. The National Academies comes 
out with its decadal surveys, and sometimes it seems to me, 
particularly when it comes to an innovation agenda and 
especially at NASA, that the recommendations of priorities that 
the Academies spend an awful lot of time putting together and 
exploring don't really match the Administration's budgets and 
the priorities that we then set here in the Congress. And so I 
wonder if you could tell us how our science priorities are 
lined up in keeping with recommendations that come out of the 
surveys.
    And then related to that, with respect to the Mars program, 
it does seem to me that, you know, some time ago fears were 
expressed at a hearing of this Committee about cuts to 
planetary science and to Mars missions and those were confirmed 
by the Administration's budget submission in the 2013 budget 
request and especially the collaboration between NASA and the 
European Space Agency ExoMars mission was terminated, and as a 
result, we won't be participating. We won't participate in the 
development of the Mars organic molecule analyzer instrument, 
and it leads me to wonder if the Administration is placing a 
priority over the long term on this kind of science why our 
budget recommendations don't line with the priorities.
    Dr. Holdren. Thank you for that question. The Mars program 
remains robust, notwithstanding our deciding under serious 
budget constraints not to proceed with 2016 and 2018 Mars 
missions that had been under discussion with the European Space 
Agency. We concluded with respect to those particular missions 
that there was no way under foreseeable budgets for NASA that 
our participation in them and in the very expensive follow-on 
mission that would actually be necessary to return samples, 
which was the ultimate idea. No way that that was going to be 
feasible under foreseeable NASA budgets.
    The decadal surveys that we get from the National Academy 
are very valuable. We look at them very closely. In the case of 
the decadal survey on planetary exploration, while they put a 
high priority on that flagship set of Mars missions, they also 
specified what we should do in the event that budgets did not 
permit carrying through with adequate support for that flagship 
mission. And in fact, in the fallback position that we 
developed, we actually followed very closely what the decadal 
survey said we ought to do if budgetary constraints prevented 
us doing plan A, and that in general is what we do. We give a 
lot of weight to those decadal surveys because they represent a 
huge amount of work by the top level of the wider science 
community in those domains.
    But we have not by any means given up on our leadership in 
planetary exploration. As I mentioned before, we remain by far 
the world's leader. We will remain the world's leader in 
planetary exploration. We have the most complex, largest and 
most capable planetary rover that ever landed anywhere on its 
way to Mars, expected to land there in August. We have a 
follow-on mission called Maven investigating the upper Martial 
atmosphere to develop knowledge that will be necessary when 
ultimately we send humans to Mars. We are investigating a 
number of small and medium-sized Mars missions that could be 
afforded under the kinds of budgets we have going forward and 
we have, as I mentioned before, a wide variety of other 
planetary and asteroidal probes heading outward or scheduled 
for launch.
    So while we determined that we couldn't afford these 
particular flagship missions, we very much intend to maintain 
our commitment to lead in the exploration of Mars and the 
exploration of the solar system more widely.
    Ms. Edwards. Thank you. And I will just finish by saying, 
just leave you with this thought, and for our Committee: You do 
not science and research by jumping in and out, by not knowing 
from one year to the next year what your budgets are going to 
be, and it seems to me that if the Administration and this 
Congress has a real commitment to science, to research, to 
advanced manufacturing, to making sure that our students have 
some place to go if we are encouraging them to engage in STEM, 
then we darn sure better figure out how to do this from year to 
year, letting our researchers know what the future looks like, 
and it is very frustrating, and I know it is frustrating for 
all of the agencies as well, to do science on a hit-or-miss, 
year-to-year basis, and it really is unacceptable, and frankly, 
at the end of the day, it just makes us spend more money. Thank 
you.
    Dr. Holdren. I agree, and I would love if it we could----
    Chairman Hall. The gentlelady's time has expired. She gives 
you good advice, and I think she ought to give that advice to 
the EPA.
    Chair now recognizes Mr. Hultgren from Illinois.
    Mr. Hultgren. Thank you, Chairman. And thank you, Dr. 
Holdren, appreciate you being here.
    I just was reading this morning in Space News an article 
about their statement that in the last four years they were 
arguing that we have gone from first place to probably third 
place as far as nations in the forefront of space exploration. 
I think that is a shame.
    I want to focus my comments mostly on something else. You 
were here back in February and I appreciate you coming back 
today. Following the hearing that we had back in February, I 
had submitted a couple of questions to you, the answers which I 
just recently received from your office. One of the questions I 
asked you in February started by pointing out that particle 
physics has become a global field that it is now entering an 
extremely exciting phase and then I asked what you thought what 
role the United States should play in that. I asked if you 
thought the United States should be building world-class 
physics facilities and bringing partners to the United States 
to collaborate here as the Europeans, Japanese, Italians, and 
Chinese are all now currently doing in their own countries. 
Your answer was, ``I think the U.S. should continue to play a 
leadership role in the field as the U.S. is doing even for 
experiments that are taking place in facilities abroad. I am 
confident that U.S. researchers can continue to be at the 
forefront of particle physics and other scientific 
disciplines.''
    While I share your enthusiasm for U.S. leadership in these 
fields, you really didn't answer my question. Not only did you 
not answer the question, you also seemed to imply that we would 
be just fine without having any world-class facilities in the 
United States. That really is troubling to me because--and I 
want to just ask for clarification on that if I am 
misunderstanding. And so, very clearly, I would ask the 
question, yes or no. Does President Obama believe that we 
should build large-scale, world-leading physics facilities in 
the United States as we used to do? Or is he satisfied in 
spending our scarce research dollars on solar panels and wind 
turbine subsidies while the next generation of American 
students is forced to go abroad to study physics?
    Dr. Holdren. Let me start by saying on the space front I 
simply do not agree with the Space News formulation that the 
United States has fallen from first to third. By any 
respectable set of metrics I know of, the United States is 
still number one in space and intends to stay that way.
    On high-energy physics, it is not true that we are content 
to leave the future of high-energy physics and facilities for 
doing that to the rest of the world. We support fundamental 
research broadly and we support research in high-energy 
physics. The President's 2013 budget has $800 million for 
research and facilities at the high-energy, high-intensity, and 
cosmic frontiers, provides funds for new initiative at all 
three of those. There is an ongoing planning exercise in the 
Office of High-Energy Physics at the DOE for the development of 
new facilities at Fermilab in your State and I expect that 
there will be positive developments coming out of that.
    We are not giving up on high-energy physics, although 
again, we are constrained. Everybody in this room knows the 
budget challenges under which the government is operating. And 
within those challenges we intend to continue to invest in 
cutting-edge, high-energy physics in the United States, as well 
as in the participation of our scientists in cutting-edge 
facilities elsewhere when that is where they are.
    Mr. Hultgren. Well, talk is very important but action is 
even more important. We have seen significant cuts under the 
President's budget to many of our laboratories, much--
significant increase going to some applied science that 
obviously the President supports. Dr. Holdren, I know you were 
able to train at MIT and Stanford, both here in the United 
States. You were also able to teach at Harvard and Berkeley, 
also here in the United States. You had a lot of opportunities 
and a very distinguished career. Wouldn't you have thought 
differently about your own career path if you didn't think 
there was an opportunity to have such an illustrious and 
accomplished career and that you had to leave the United States 
to pursue that career?
    Dr. Holdren. Well, the short answer is probably yes. If 
that had been my impression of the state of play, it is 
possible I would have done something else. But I don't think 
that is a correct impression of the state of play today. I 
think the United States remains at the cutting edge of high-
energy physics and a great many other fields. You continue to 
see that in U.S. preeminence in the awards of Nobel Prizes and 
other prizes, including some that are often awarded for work in 
the more recent past rather than the distant past. This is a 
leadership role that we are going to keep and I think we are 
determined to continue to inspire our young people to believe 
that there are exciting and rewarding careers in fundamental 
science in this country.
    We still have, by the way, enormous flows of the most 
talented and brightest students from countries all around the 
world eager to study high-energy physics and other topics in 
our great universities. And I think we are unmatched in the 
world in terms of the attractiveness of our university system 
in general and the science focuses in our great research 
universities in terms of the attractiveness to students from 
around the world.
    Mr. Hultgren. My time is running out, but I think we all 
need to ask the question--and, you know, are the President's 
policies offering today's students the same opportunities your 
generation of scientists had in terms of training, learning, 
and working in world-class user facilities here in the United 
States? I think that is a real question I would say no. The 
opportunities are not the same. They are not as good. It is 
declining. Our space program is declining. While others are 
advancing, ours is declining. We have--I have heard firsthand 
from physicists in my district that they would certainly think 
twice about starting a career in a field where they would have 
no choice but to fly to China, Japan, or Europe all the time to 
be an active participant.
    That attitude of thinking that the President seems to have, 
the attitude that we shouldn't build facilities here, is a sure 
way to keep our physics programs from being competitive, not to 
mention a deterrent to young people to get into those sorts of 
scientific fields, which I think is a huge failure for our 
future.
    Again, we talked about this ahead of time. I know these are 
difficult times but that is where difficult and important 
leadership must step up. And so I hope we can continue to do 
that through these difficult times, setting that type of vision 
for our young people that, yes, not only can you study here but 
you can apply it here because we are going to continue to grow 
and build new world-class facilities for basic scientific 
research.
    Again, my time is up. I yield back. Thank you.
    Chairman Hall. If you asked the question, you did a good 
job of answering it.
    The Chair recognizes Mr. Miller, the gentleman for North 
Carolina.
    Mr. Miller. Thank you, Mr. Chairman.
    An issue that this Committee has dealt with in the last few 
years is rare earth and energy critical elements. The 
Investigations and Oversight Subcommittee held hearing--held a 
hearing after articles appeared in the press I think 
principally in the New York Times about the topic. And unusual 
for the Oversight Subcommittee, we developed legislation to 
address the problem that Kathy Dahlkemper introduced in the 
last Congress and I introduced in this Congress and there has 
been interest by Republicans on this Committee as well.
    Rare earths, of course, are something that most Americans 
have never heard of, or if they have heard of them, they maybe 
heard of them in high school chemistry and promptly forgot. But 
they are increasingly being used in sophisticated technologies 
and we are at a distinct disadvantage to the Chinese, who 
largely have a monopoly on many rare earths and energy-critical 
elements. And they are using those which, in many of the 
sophisticated technologies, are important to our national 
security. And they are leveraging their control of those 
elements to require that manufacturing using those be done in 
China. To some extent I understand that. I understand they 
don't want to have an extractive economy. They don't want to be 
Angola. But it is certainly not acceptable from our point of 
view that we are closed out of that important manufacturing 
that would be a source of jobs, very highly skilled, well-paid 
jobs for American workers.
    But the problem with dealing with it is complex as I am 
sure you know. There is a variety of suggested programs and it 
does sound certainly like--it does certainly appear that we 
need a strong role by our government in coordinating those 
efforts.
    Dr. Holdren, what do you think are the appropriate 
activities for the government in this area? And what are the 
notable research gaps?
    Dr. Holdren. Thank you for that good question. We have been 
paying a lot of attention to this challenge and the critical 
materials challenge and the challenge of rare earth minerals in 
particular. Let me just say as a start that China does not have 
a monopoly on resources of rare earth minerals, but they 
currently have a practical monopoly on the whole production 
system because they were able to undercut everybody else and so 
everybody else got out of the business. And this is something 
obviously that we need to fix.
    OSTP has been leading an interagency process on how to 
address the rare earth minerals and related raw materials 
issues that has involved the Department of Energy, the 
Department of Commerce, the U.S. Trade Representative, and the 
Department of Defense. We have created several working groups 
to address different parts of the problem, including focusing 
on those resources that are particularly important either to 
our national security or our economic future. We have hosted 
roundtables with industry on this subject and looked into what 
we can do to encourage industry to rebuild some of these supply 
chains in the United States where we actually have the raw 
resources but have let the supply chains atrophy. DOE has been 
pursuing research and development that addresses material 
separation and processing and reducing the intensity of use of 
these materials in different applications so that we can make 
the materials that we do have go further.
    In the 2012 appropriation, DOE received $20 million for an 
innovation hub on critical materials. The 2013 budget requests 
a continuation of funding for that hub. Both DOE and EPA have 
announced small business innovation research, SBIR grants 
addressing processing of these critical materials. We also have 
an R&D program at DOE aimed at early stage technology 
alternatives that can reduce or eliminate the dependence we 
have on minerals that we are not in a position to produce in 
this country. So we have a lot going on in this domain. We 
understand its importance. We agree with you about that and we 
are putting money and resources into remedying the problem.
    Mr. Miller. I yield back.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes Mrs. Biggert, the gentlelady from 
Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Dr. Holdren, the Administration's big data research and 
development initiative announced earlier this year focused on 
improving our ability to derive new insights and knowledge from 
large and complex collections of scientific and other data. The 
growth of the big data and data-intensive computing is going to 
require comparable advances in high end or high performance 
computing platforms if we are going to effectively and 
efficiently and affordably extract value from large and growing 
volumes of data. The power demands alone will limit the 
development of larger and faster supercomputing systems and 
their ability to process big data. And I don't view this as an 
either/or proposition. While the Administration is proposing 
new financial commitments to big data, we have yet received a 
report from the Administration on the strategy for achieving 
exascale computing. And it is my understanding that a report 
was due out in February of this year outlining the research, 
development, and engineering efforts to achieve exascale. And 
again that was due in February. So when can we expect to see 
it?
    Dr. Holdren. Let me start by agreeing with your point that 
the future of computing is going to involve both what we call 
big iron and big data. And you are asking about the big iron 
part, the hardware development and the energy requirements. I 
will have to look into where in the process that exascale 
computing report is and how soon you can expect it. I will get 
back to you on that. But I know that we are paying a lot of 
attention to the needs in that domain and particularly the need 
that you mentioned to reduce the energy requirements of our 
fastest computers. And there have been some very important 
developments in that domain, which promise to substantially 
reduce the otherwise soaring requirements for power of petaflop 
computers and more.
    Mrs. Biggert. I really--I worry about, you know, what is 
happening in the world and we are just on hold because of a 
report. But I was pleased to see that the IBM supercomputer at 
Argonne National Lab in my district ascended to number three as 
the fastest in the world, third and then behind the fastest 
computer is at Lawrence Livermore and behind that is a Japanese 
supercomputer. But I think that all of--the group at Argonne 
should be proud of their hard work, but clearly, the U.S. 
leadership is being challenged in this area.
    And as one article put it, the latest list marks the return 
of the European systems in force with the addition of two 
German systems and one Italian system. And the U.S.-based 
supercomputer that got the top billing in this latest report is 
now ranked at number six. And I have certainly been looking at 
this for a long time and we are facing stiff competition. And 
the value of supercomputing seems to be globally understood and 
we can't let us fall behind if we are--and we have to have that 
plan for achieving exascale and I would urge you to see that it 
is completing and submitted to the Congress as soon as 
possible.
    Dr. Holdren. I agree and I will certainly get back to you 
on the report. We intend to stay number one. We can expect 
challenges from around the world in this domain and in others--
--
    Mrs. Biggert. Um-hum.
    Dr. Holdren. In high technology but we intend to stay 
number one. We recognize the importance of this one.
    Mrs. Biggert. Yeah. Well, it certainly has been--you know, 
there is--and now in the 2013 budget there has been a 
submission for $21 million for new data-intensive science 
efforts. But the exascale remains on hold so we have got to get 
those two to be balanced. Thank you.
    Yield back.
    Chairman Hall. The Chair recognizes Ms. Lofgren, gentlelady 
from California.
    Ms. Lofgren. Thank you, Mr. Chairman. And thank you, Dr. 
Holdren, for being here and for your good work.
    Recently, the National Academy of Sciences issued a report 
titled, ``Managing for High-Quality Science and Engineering at 
the NNSA National Security Laboratories.'' And I would ask, Mr. 
Chairman, unanimous consent to submit this report into the 
record.
    The report highlights--and it is a long report but 
basically it highlights the broken relationship between the 
National Nuclear Security Agency and the scientists at our 
research labs. One senior scientist at Los Alamos was quoted in 
the report as saying this: ``when I started as a young post-doc 
and then later in my career as a university professor and also 
here at the lab, there was a social contract which basically 
said you will never get rich in science but we treat you as 
adults, respect you for your commitment, and in turn you can 
pursue science and have fun.'' Today, this contract is badly 
broken, an atmosphere of distrust, rigorous control, and 
checks.
    And the report went on to note the increasing operational 
formality of being dictated by the NNSA headquarters that had 
contributed to a bias against experimental work. And the report 
said, ``without a strong experimental program, the quality of 
scientific and engineering at the laboratories will be at risk, 
as will the core mission of these laboratories.''
    Since this report came out last year, are you aware of 
anything that NNSA has done to repair the distrust and the 
damaged relationships that the report outlines both with the 
directors and with the scientists at our national labs?
    Dr. Holdren. Thank you for the question. First of all, I am 
very much aware of the report and----
    Ms. Lofgren. I know you are.
    Mr. Holdren [continuing]. As you and I have discussed 
offline, we have a taskforce in OSTP in the National Security 
and International Affairs division following up on that 
report's recommendations looking at the health and adequacy of 
the way we are running our national security, science, 
technology, and innovation enterprise. I myself just two weeks 
ago visited both the Sandia National Labs and the Los Alamos 
National Lab in New Mexico, spoke with the directors of both 
labs, and I will be going to Livermore to talk to the 
management at Livermore about this set of problems, among 
others, and what we can do about them. And I have talked to 
Secretary Chu about it and with Administrator D'Agostino. And 
they understand that there is a problem and they are as 
determined as I am to address it. Obviously, we have to 
maintain the quality of the science and engineering at our 
national defense laboratories and excessive micromanagement is 
obviously not contributing to the attractiveness of continuing 
employment for our brightest scientists and engineers at these 
labs. So we are determined to fix that.
    Ms. Lofgren. Thank you very much for that report. That is 
very encouraging news and perhaps I can follow up offline with 
some of the details of that. I am so pleased that you are 
taking responsibility for this issue.
    As you know, I am very interested in inertial confinement 
fusion and I am aware that both you and Dr. Koonin, the former 
Undersecretary for Science, were instrumental in calling for 
the report from the National Academy of Sciences to assess our 
prospects on inertial confinement fusion energy. The National 
Academy released their interim report, and again, I would ask 
unanimous consent to put the interim report into the record.
    Chairman Hall. Excuse me. This is not a report that has 
been discussed with the other side. Normally, you know we do 
that.
    Ms. Lofgren. Oh, I wasn't aware of that, Mr. Chairman, but 
I----
    Chairman Hall. And it would be objection unless you want to 
work it out with them.
    Ms. Lofgren. It is a National Academy of Science report. It 
is on the Internet so----
    Chairman Hall. I understand it is a very big report and we 
are aware of it. The normal procedure is to have it worked out, 
and I think they would probably work with you if you would do 
it.
    Ms. Lofgren. Okay. That would be fine, be happy to do that.
    But I would like to note that the report basically--it is a 
long report--but it is I would say enthusiastic about the 
prospects. Originally, the goal for ignition was 2014. Somehow, 
that morphed into 2012 and as the report--the National Academy 
report indicates, there is no guarantee. This is science, not 
engineering. I mean we may get this this year; it may be next 
year.
    Would it be your belief, Dr. Holdren, that we should not--
especially given that China and Russia are trying to overtake 
our lead in this matter that we should not give up, close as we 
are, on this quest for ignition at this point?
    Dr. Holdren. Certainly, I agree with that. And Secretary 
Chu agrees with it, I know. The NIF is a national resource, 
National Ignition Facility. It has the potential to achieve 
ignition although there are still obstacles in the way of that. 
We think that they can be overcome and that they should be 
overcome. So we remain committed to the use of that facility 
for that purpose as well as others.
    Ms. Lofgren. My time is up. I would just like to say, Dr. 
Holdren, it is a delight to have you here and to listen to your 
wisdom. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Hall. The gentlelady yields back.
    The Chair recognizes Mr. Brooks, gentleman from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    In his State of the Union Address, the President reiterated 
his call to Congress to pass a ``Clean Energy Standard'' which 
would require utilities to produce and sell electricity from 
expensive sources such as wind and solar. You may also be aware 
that the Department of Energy has undertaken numerous analyses 
of the impact of Obama's Clean Energy Standard on electricity 
prices, including one requested by our own Chairman Hall and 
another requested by Senator Bingaman. Both Department of 
Energy studies found that Obama's Clean Energy Standard would 
significantly increase electricity prices and result in heavy 
economic cost to the people of America. Dr. Holdren, do you 
agree that President Obama's Clean Energy Standard will result 
in increased electricity cost to American consumers?
    Dr. Holdren. Well, first of all, let me note that the clean 
energy standard is not just about wind and solar. It is about 
nuclear energy, it is about fossil fuel energy with improved 
emission control technologies, and it is the view of the 
Administration that we are going to need all of those in 
increased measure in order to provide the reliable and 
affordable energy the country needs while addressing the need 
to reduce emissions, including emissions that are threatening 
to change global climate, that are changing global climate, 
which itself----
    Mr. Brooks. Dr. Holdren, please answer my question. Do you 
agree that the solar and wind aspects of Obama's Clean Energy 
Standards will increase energy costs for American consumers, as 
has been determined by the Department of Energy in their 
studies?
    Dr. Holdren. Congressman, I have not personally read that 
study and so I don't want to endorse or criticize its findings 
without having done so. But we are talking about a portfolio of 
energy sources that would fall under the clean energy rubric, 
and my assumption is that that portfolio will be pursued in a 
way to minimize impacts on energy prices and on American 
consumers.
    Mr. Brooks. Okay. Do you have a judgment as to whether the 
solar and wind aspects of Obama's Clean Energy Standards 
program will increase cost to consumers? You still haven't 
answered that question. You used the word ``minimum.'' I am 
asking about will there be an increase? Do you have a judgment?
    Dr. Holdren. I think the answer depends on a lot of factors 
that I haven't analyzed. But we know that at the present time 
both solar energy and wind are more expensive than some of the 
other options. At the same time, the prices of the other 
options are changing.
    Mr. Brooks. Are you testifying, then, to this Congress that 
in your capacity with OSTP you have no judgment, no idea as to 
whether energy costs will go up or down should the President's 
Clean Energy Standards with respect to solar and wind power go 
into effect?
    Dr. Holdren. The proposal is not with respect to solar and 
wind power alone. And what happens to prices depends on the 
portfolio.
    Mr. Brooks. Dr. Holdren, I have limited time. You have 
already covered that it spans different parts. I have focused 
my question on the wind and solar part. That is where the focus 
is. I don't want to go into everything else. I want your 
judgment if you have a judgment. And if you don't have a 
judgment, that is fine in your capacity with OSTP. If you have 
no judgment whatsoever, that is fine. Say so. Do you have a 
judgment is the first question.
    Dr. Holdren. I think it depends on what the alternatives 
are. I think it depends on----
    Chairman Hall. Answer the question. He asked if you had a 
judgment.
    Dr. Holdren. I do not have a judgment on the question he 
has posed to me.
    Chairman Hall. That answers the question. Go ahead with 
your questions.
    Mr. Brooks. Thank you, Mr. Chairman. Inasmuch as he doesn't 
have the background or knowledge to answer that question, I 
will go to another one.
    President Obama has made clean energy spending and the 
``green jobs'' associated with them a centerpiece of his 
domestic policy agenda. However, as we review and consider the 
impact of these programs, there has been some controversy 
regarding the Administration's definition and accounting of 
what constitutes a ``green job.'' This resulted in many 
headlines a mere two weeks ago when a senior Labor Department 
official testified to Congress that the following occupations 
constitute green jobs under the Administration's definition: 
college professors teaching environmental courses, school bus 
drivers regardless of whether the bus is hybrid or an 
alternative, workers who fuel school buses, employees at 
bicycle shops, antique dealers because they sell recycled 
goods, Salvation Army employees, people who sell rare books and 
manuscripts because the items are used, hence recycled.
    Dr. Holdren, as the President's top science and technology 
advisor, would you agree the Administration's definition of 
green jobs is flawed and that it overstates a number of true 
green jobs that exist?
    Dr. Holdren. The definition as you just described it seems 
to me to be overly broad, yes. I was not responsible for 
producing that definition. I would be inclined to ask the 
Council of Economic Advisors how they would define green jobs. 
I don't think the Administration as a whole as embraced a 
decision, but I do agree that the definition you read is overly 
broad.
    Mr. Brooks. With respect to those seven different 
professions that the senior Labor Department official testified 
to Congress constitute green jobs under the Administration's 
definition, are there any that you would consider to actually 
in fact be a green job of those seven?
    Dr. Holdren. I would want to look at that in more detail. 
You went by the seven rather quickly and I have not focused on 
this issue.
    Mr. Brooks. Well, would you like me to go through them 
again or----
    Dr. Holdren. No, I think that would not be necessary. I 
would be happy to respond to you in writing following the 
hearing.
    Mr. Brooks. All right.
    Dr. Holdren. But this is not a domain in which the Office 
of Science and Technology Policy has actually gotten involved.
    Mr. Brooks. Well, thank you for your agreement, then, that 
the senior Labor Department official, his view of what is a 
green job and the Administration's view of what is a green job 
differs from yours.
    Dr. Holdren. His view may not be the Administration's view.
    Mr. Brooks. Chairman, I have no other questions. Well, now, 
wait a second. This resulted in many headlines two weeks ago 
when a senior Labor Department official testified to Congress 
that the following occupations constitute green jobs under the 
Administration's definition.
    Chairman Hall. The gentleman's time is----
    Mr. Brooks. All right. Thank you, Mr. Chairman.
    Chairman Hall. You are over.
    The Chair recognizes Mr. McNerney. We will get back to that 
question before we leave.
    The Chair recognizes Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Holdren, thank you for joining us today. In your 
testimony you mentioned a few new projects such as the website 
about manufacturing databases and the robotics initiative. 
Would you please discuss how these and other initiatives create 
jobs locally and how they advance our leadership in the world 
with regard to innovation?
    Dr. Holdren. All of the initiatives that we have been 
pursuing in this domain--advanced manufacturing, robotics, 
nanotechnology, and others--are aimed, as I mentioned before, 
at accelerating the transfer of fundamental advances and 
discovery in science and engineering into commercial processes, 
products, services, and therefore into economic growth and 
jobs. And the fact that all of these initiatives are 
constructed around partnerships with the private sector working 
together with the public sector and the academic sector is, in 
fact, leading to success in accelerating the transfer of these 
initiatives.
    We already see signs that manufacturing is moving back to 
the United States. We are already seeing benefits from this 
approach. And we are also seeing benefits from an approach in 
which we are working very closely between industry, government, 
and community colleges to increase the extent to which the 
coursework that students take in community colleges prepares 
them for jobs in the industries that exist in their regions. 
This I think is an extremely important concept that we have 
been pursuing and it is already bearing fruit.
    One of the striking aspects of our current economic 
predicament is that in spite of an overall unemployment rate of 
over eight percent, many high-tech firms cannot find the high 
skill workers that they need. They can't find the fit between 
the jobs they actually have open and the people who are 
available in the unemployed labor force. And we intend to fix 
that.
    Mr. McNerney. Thank you. Well, as we all know, 
cybersecurity is an issue that is critically important to our 
national security and our national economic well being. How has 
your office created initiatives to help the cybersecurity 
effort and what has the OSTP done to strengthen our national 
cybersecurity?
    Dr. Holdren. OSTP has a number of responsibilities in the 
domain, particularly of national security and emergency 
preparedness communications. And cybersecurity, therefore, 
intersects our responsibilities in that domain. But more 
generally, on cybersecurity we work very closely with the 
National Security staff, the Homeland Security Staff, the FBI, 
the National Security Agency, the Department of Homeland 
Security in an interagency process that is aimed at 
strengthening cybersecurity across the United States.
    We also have a variety of bodies and boards in which these 
government agencies sit with the CEOs of the major 
communications internet service providers and the like to build 
the sort of cooperation that we need between the public and 
private sector to better protect our electronic systems from 
attack and from theft. As I think everybody in this room knows, 
this is an enormous challenge and it is a high priority for the 
Administration.
    Mr. McNerney. Thank you. Well, moving on, then, you know, I 
am very interested in the STEM education initiatives. Would you 
please elaborate on how the STEM initiatives you discussed will 
be utilized in our individual districts?
    Dr. Holdren. I think going through the individual districts 
would be----
    Mr. McNerney. Well----
    Dr. Holdren [continuing]. A great challenge. Both Change 
the Equation and the Educate to Innovate strategy have a 
specific focus in scaling up models that have proven to work to 
a much wider variety of locations. So, for example, under the 
Change the Equation initiative, they have a program to transfer 
to 100 new sites around the country successful efforts at 
improving the quality of K-12 classroom education through 
better teacher preparation. All of these approaches are of 
course designed to work with educators at the local level 
because that is where it happens.
    Educate to Innovate is, among other things, bringing 
practicing scientists, engineers, and mathematicians from 
companies, from national labs, and from universities into 
classrooms all around the country to work with K-12 teachers in 
improving the classroom experience through more hands-on 
activities and also to serve as role models so that the 
practicing scientists and engineers and mathematicians can 
relay to the students the excitement and the opportunity 
available from STEM careers. So we are absolutely trying to do 
this on the ground across the country and taking models that 
have worked in particular places and translating them to many 
more.
    Mr. McNerney. Thank you, Dr. Holdren.
    I yield back.
    Chairman Hall. The gentleman's time is expired.
    Chair recognizes Mr. Quayle, gentleman from Arizona.
    Mr. Quayle. Thank you, Mr. Chairman.
    Thank you, Dr. Holdren, for being here. Earlier this week, 
my colleagues and I sent you a letter seeking additional 
information on the National Network of Manufacturing Innovation 
that was included in the Administration's fiscal year 2013 
budget request. And NIST has been tasked with coordinating this 
interagency effort. The original budget justification stated 
that the Administration would propose legislation creating a 
mandatory account making available $1 billion but really few 
details have been made available. Now, my Subcommittee has 
subsequently held two hearings with NIST on their fiscal year 
2013 budget request and another specifically on the NNMI 
proposal. And we have been really frustrated by the lack of 
information and the inability to receive answers on basic 
questions about the proposal's funding and structure. We have 
been told that the Administration is leading this initiative, 
so I would like to follow up directly with you.
    And my first question is how did the Administration arrive 
at the funding level of $1 billion for the greater network?
    Dr. Holdren. Well, the basic answer to that question is we 
expect, number one, that the $1 billion from the Federal 
Government over a period of five years will stimulate at least 
matching contributions from the private and philanthropic 
sector. So we are looking at a program which over five years 
would spend about $2 billion in total. And the idea is to have 
15 institutes for manufacturing innovation around the country 
which would spend about $30 million a year each. So that is 
$450 million a year times five years is $2.25 billion. And 
basically that is where the $1 billion number came from. The 
government----
    Mr. Quayle. Where did the estimates for the spending for 
each of those different institutes come from? I mean how are 
you basing those estimates? I am just trying to get an 
understanding.
    Dr. Holdren. I mean obviously it is a back-of-the-envelope 
calculation----
    Mr. Quayle. Right.
    Dr. Holdren [continuing]. Designed to estimate about how 
much money it would take to make a dent in a regional institute 
with this focus. But, you know, I could not produce a sharp 
enough pencil to tell you that $30 million is exactly the right 
number----
    Mr. Quayle. Right.
    Dr. Holdren [continuing]. Rather than $25 or $35.
    Mr. Quayle. Okay.
    Dr. Holdren. So it is a ballpark number that takes you to 
the ballpark number of a billion dollars from the government.
    Mr. Quayle. Okay. Now, the proposal states that it is a 
mandatory account which is interesting because most of the 
times these programs are discretionary. But the proposal states 
that it is a mandatory account and the authorizing legislation 
would be subject to PAYGO. Can you tell us the specific offsets 
that the Administration has identified for establishing this 
mandatory fund?
    Dr. Holdren. No specific offset has been identified to this 
program. It is offset within the mandatory policy changes 
proposed in the budget, but we have not tried to offset the 
program explicitly.
    Mr. Quayle. Okay. And then on March 9 of this year, the 
President held a public event in Virginia where he announced 
the creation of a pilot program supported by up to $45 million 
in fiscal year 2012 funds drawn from existing resources in 
multiple agencies, including some within this Committee's 
jurisdiction. NIST, NSF, and the DOE more recently we heard 
that NASA will also be participating in the pilot program. Can 
you tell us specifically what activities at NIST, NASA, NSF, 
and DOE are going to be reduced in order to fund the pilot 
program?
    Dr. Holdren. I don't think any activities are going to be 
reduced. The agencies that are going to collaborate in the 
additive manufacturing pilot are advancing specific missions 
that they are already authorized to pursue and they are 
undertaking activities for which funds have been appropriated. 
But they are doing it under this overarching rubric.
    Mr. Quayle. So were the funds not necessary--did--are we 
overly funding these programs? Because it seems like we are 
actually extending and expanding what they are supposed to be 
doing by putting this additional money into new programs. Did 
they not need that money before and it was just excess?
    Dr. Holdren. I think we are improving efficiency and 
coordination by focusing these efforts under this rubric.
    Mr. Quayle. Okay. Now, one other quick question is why 
would the Administration propose to fund the NNMI in fiscal 
year 2013 when the pilot, which is supposed to serve as proof 
of concept for the greater network--and that won't be completed 
until at least the end of fiscal year 2014--why the discrepancy 
there when you are asking for the funds in fiscal year 2013 
when you are actually not even going to get proof of concept 
until the end of fiscal year 2014? It seems like you are 
putting the cart before the horse here.
    Dr. Holdren. Well, actually, the solicitation for the 
additive manufacturing pilot closed last week. We expect to 
announce an award in the coming month to six weeks, and we 
therefore expect that the pilot would begin to operate before 
the end of fiscal 2012.
    Mr. Quayle. But operation isn't proof of concept. I mean 
you can have an operation and say that you are going to try to 
prove a concept----
    Dr. Holdren. No, the proof of----
    Mr. Quayle. You are going to be spending a billion dollars; 
you would think that we would want to put forth the proof of 
concept in the totality, not just, hey, we have started the 
process of a proof of concept, which seems what you are doing 
then if you are talking about those awards. That is not a proof 
of concept; that is just the beginning of that process.
    Dr. Holdren. Well, I think we are talking about a phased 
process, and we think that the order we have laid out makes 
sense.
    Mr. Quayle. Okay. Thank you, Dr. Holdren.
    I yield back.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes Ms. Johnson from Texas for five 
minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Holdren, I know that in terms of staffing, the OSTP 
experiences a high turnover both during the transition in 
leadership and throughout any given administration because of 
your heavy reliance on detailees from the agencies. But your 
day-to-day coordination duties carry on from one year to 
another and from one administration to another. So how many 
OSTP staff tend to carry over from one administration to the 
next or at least what are your own--what is your experience in 
it?
    Dr. Holdren. Well, of course, there is continuing turnover 
in these positions. When I took over the office upon my 
confirmation by the Senate in March of 2009, there were 40 some 
people who had stayed from the previous administration. The 
turnover in that group proceeded over the intervening three 
years and there are now probably more like 10 or 12 who have 
carried over from the previous administration. The continuity 
is obtained in a lot of ways, partly as the folks who are 
carried over, partly is the really extraordinary performance of 
OSTP directors from one administration to another in handing 
over to their successor an extraordinary degree of 
documentation about the activities and responsibilities of the 
office. I got a tremendous amount of valuable information from 
my predecessor, the late John Marburger, who served in this 
capacity in the Bush Administration, who in turn got a 
tremendous amount from his predecessors in the Clinton 
Administration.
    There is also a continuity that comes from people coming in 
and out. That is, I was in and out of OSTP throughout the 
Clinton Administration in my role as one of President's Council 
of Advisors on Science and Technology. So I actually knew quite 
a bit about what goes on in OSTP before I ever got the job. 
There are other folks who have been in OSTP before and are now 
back again but weren't carried over from the previous 
Administration. There are a lot of ways we deal with continuity 
but I think we are doing well.
    Ms. Johnson. The benefits--I know there are benefits and 
limitations of this current model, but I think what it does 
emphasize is that outcomes are not necessarily partisan; they 
are strictly based upon----
    Dr. Holdren. Yes. I mean we think of science and technology 
policy as a domain that has largely been bipartisan over the 
years. I think it continues to be. There is wide bipartisan 
support for at least most of what we do and we don't think of 
ourselves as a partisan office.
    Ms. Johnson. Does your budget adequately support the mix of 
staff and that you think might be best or do you get too much?
    Dr. Holdren. Well, of course, we took a 32 percent budget 
cut for fiscal year 2012. Unfortunately that caused a lot of 
stress and a lot of challenges to manage OSTP's wide range of 
responsibilities with a budget cut of that magnitude. We are 
pleased that the appropriators both in the House and in the 
Senate have this year voted out the President's full request of 
$5.85 million as opposed to the $4.5 we got in 2012 and we hope 
that ends up, obviously, in the final appropriations bill. It 
would put us in a much better position to cover the range of 
responsibilities we have. We really do a lot on a shoestring 
and we do it in part, as your question implies, with the help 
of a lot of detailees who come from the science reg agencies, 
they come from NSF, NOAA, NASA, DOE, DOD, NIH, and they bring 
insights about those domains and they enable us to cover the 
broad terrain in a way that we would not be able to cover if we 
had to do it all on our own budget.
    Ms. Johnson. Now, one last quick question. The current 
statute limits the office to four Associate Directors and makes 
them subject to Senate confirmation. And right now, you are 
taking advantage of all four slots but unfortunately all 
without any Senate-confirmed directors. Do you have any 
thoughts either on the number of directors or the requirement 
for Senate confirmation?
    Dr. Holdren. Well, I think four Senate-confirmed Associate 
Directors correspond to the four divisions--Science, 
Technology, Environment and Energy, and National Security and 
International Affairs is the right number. We started out after 
some delays in confirmation having three of the four Senate-
confirmed. The fourth, the President's nominee for National 
Security and International Affairs, was never confirmed. He got 
an interim appointment that subsequently that expired and so he 
has left. But in the meantime, the Senate-confirmed Associate 
Director for Technology Aneesh Chopra has left just a few 
months ago. The Senate-confirmed Associate Director for 
Environment and Energy Shere Abbott left a little longer ago. 
And the Senate-confirmed Associate Director for Science, Dr. 
Carl Wieman, Nobel Laureate in Physics left just a couple of 
weeks ago for personal reasons--health reasons really.
    And so we are currently in a position very late in the 
term, when the prospects of getting additional nominees through 
the Senate are very poor, we have one nominee, the President's 
nominee for an Associate Director for National Security and 
International Affairs, Dr. Pat Falcone, has had her hearing and 
we hope she will be confirmed. But the other divisions are 
currently under strong leadership but leadership that I have 
delegated the responsibilities to on an interim basis. And I 
think it is--while we are working on the problem of finding 
people who would be Senate confirmed for those slots, I am not 
sure how many of those we will be able to get confirmed before 
the election.
    Ms. Johnson. And it is even more of a challenge for the 
Nation.
    Thank you very much. My time has expired.
    Chairman Hall. The Chair recognizes Dr. Harris, gentleman 
from Maryland, for five minutes.
    Mr. Harris. Thank you very much, Mr. Chairman.
    And thank you, Dr. Holdren, for appearing in front of the 
Committee.
    Let me ask, you know, one of the issues that came up before 
my Subcommittee has to do with transparency, and in your 
testimony, you kind of brag about the first day in office the 
President signing the memorandum on transparency and open 
government. With that in mind, as the President's Science 
Advisor, do you think it is a matter of principle that the 
Federal Government should make scientific data that it uses to 
justify regulatory actions public? Specifically, we have an 
issue with the EPA and some of their regulatory actions that 
they claim are based on scientific data but we have had a hard 
time getting them to release the original data upon which they 
base action. As a matter of principle, do you think we should 
expect that?
    Dr. Holdren. Yes.
    Mr. Harris. Okay. Would you work with the Committee to see 
that we get----
    Dr. Holdren. Be happy to do that. If there is a problem 
there, I would happy to work with you. I think the principle 
is--absolutely the data on which regulatory decisions and other 
decisions are based should be available to the Committee and 
should be made public unless there is a classification reason--
--
    Mr. Harris. Right, and----
    Dr. Holdren [continuing]. It seems unlikely.
    Mr. Harris [continuing]. I imagine unlikely in that 
situation.
    Dr. Holdren. Unlikely in this case.
    Mr. Harris. Well, thank you. Let me ask you, also in your 
testimony you talk about clean energy but when the President 
talked about clean energy in the State of the Union, he 
actually included natural gas as clean energy. You left it out 
of your testimony. Do you consider natural gas a clean energy 
source?
    Dr. Holdren. Yes. On that----
    Mr. Harris. Okay. Is there a reason----
    Dr. Holdren [continuing]. Natural gas----
    Mr. Harris [continuing]. Why you left it out of your 
testimony?
    Dr. Holdren. No. Natural gas is the cleanest of the fossil 
fuel resources----
    Mr. Harris. So you think we should have----
    Dr. Holdren [continuing]. Inherently----
    Mr. Harris [continuing]. Significant research and 
development into it as a clean energy source?
    Dr. Holdren. Well, I think the natural gas business is so 
well developed that the private sector does most of the further 
R&D that is needed in that domain. I don't think we need a 
large federal R&D program, although we do need federal R&D to 
ensure, for example, that hydrofracturing can be done in a way 
that protects drinking water and protects other environmental 
values.
    Mr. Harris. Is there--you are a scientist. Is there a 
documented case of contamination of drinking water from 
hydrofracturing?
    Dr. Holdren. There is not.
    Mr. Harris. There is not. So as a scientist with 1.2 
million applications of hydrofracturing, your testimony is that 
despite 1.2 million applications with no case of drinking water 
contamination, we should be expending monies in the Federal 
Government for 10 agencies to look for a reason to regulate 
hydrofracturing?
    Dr. Holdren. We are----
    Mr. Harris. As a scientist now, 1.2 million applications, 
Doctor, you admit no documented case of drinking water 
contamination. Now, to me it looks like--that looks like a wild 
goose chase, but you might have a different opinion.
    Dr. Holdren. I think it is very important that we develop 
hydrofracking in a way that the American public has confidence 
in it and can continue to rely on it.
    Mr. Harris. Do you think that----
    Dr. Holdren. I think the danger is, Congressman----
    Mr. Harris. Dr. Holdren, I am going to interrupt you for a 
second because I only have two more minutes and I have one more 
question. Do you think it is scientifically--that it is 
scientific integrity when the EPA issues a press release, a 
fear-mongering press release about the data from Pavillion 
study and basically has to go back and admit a few months later 
that we have to actually go back and collect some more data? Do 
you think that is good science?
    Dr. Holdren. I don't want to defend a particular press 
release.
    Mr. Harris. Okay----
    Dr. Holdren. I didn't see it.
    Mr. Harris [continuing]. Dr. Holdren, I would suggest that 
part of the reason why the American public has no faith is that 
the scientific community in this Administration has not come 
out and said you know what? You ought to have confidence in a 
technique that has been used 1.2 million times with no 
documented case of water--now, we are going to look at it, but 
as a baseline it looks pretty safe. It is exactly 180 degrees 
from what scientists in the Administration have said.
    Now, finally, in my final minute, there is a conference 
going on in Rio de Janeiro this week, and Americans quite 
appropriately are pretty skeptical whenever we get together at 
international conferences and come to agreements because they 
are concerned that our taxpayers are going to bear the costs 
and economic burdens of any agreements that come from these.
    In 2007, at a Climate Change Conference in Bali, your 
response to an interview question asked about whether 
``Americans need to reduce their living standards,'' you said--
and this is a quote and I need to know whether it is accurate--
``there is going to have be a degree of redistribution of how 
much we consume.'' Is that an accurate quote of what you said 
in 2007?
    Dr. Holdren. I do not remember, sir, exactly what I said in 
2007, but it sounds to me that I would have been talking about 
distribution between clean energy technologies and dirty energy 
technologies and where we get our consumption, what the 
processes are more broadly by which we support our standard of 
living.
    Let me note as well that both the President has said, and I 
have said, that we believe that the country's natural gas 
resources can be developed safely. We have both been clear on 
that. The question that you are getting at is whether the 
government needs to pay any attention at all to the range of 
potential environmental----
    Mr. Harris. No, the question--my specific question is 
whether you said there is going to have to be a redistribution 
of how much we consume. And I will go back and pull the final 
quote whether we were talking about energy or whether we are 
talking about this perception that the government just thinks 
that Americans just consume too much and that maybe this is not 
fair somehow. Well, I would suggest that we--you know, if you 
think that what we ought to reduce our GDP, consume less, maybe 
have a lower GDP, that is certainly consistent with the 
President's economic policies.
    Dr. Holdren. That is not----
    Mr. Harris. We are at the----
    Dr. Holdren [continuing]. What I think and it is not what 
the President thinks.
    Mr. Harris. Well, thank--I am glad he doesn't think it but, 
you know, when they continually revise down our GDP estimate 
and then we have folks in the Administration who have said a 
few years ago, well, you know, we ought to redistribute our 
consumption and you have other Administration officials say, 
well, you know, it would be nice if the price of gas were at 
European energy gas levels, then some people are skeptical of 
that. But with that--and that was just a rhetorical question. I 
thank you, Mr. Chairman.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes Mr. Lipinski, the gentleman from 
Illinois, for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Thank you, Dr. Holdren, for your testimony and for all the 
work that you are doing. I know it has been almost two hours 
now. A couple questions that I have here, the first is the 
America COMPETES Act and the reauthorization, I think, were 
very, very critical for our Nation and we need to remain 
committed to those. I am particularly interested in talking 
with you about innovation inducement prizes at federal 
agencies. OSTP recently released a report on prizes 
highlighting successes and best practices in federal prize 
programs. I was glad to see this report, and I am glad that you 
support the use of innovation prizes. Something I had 
originally been a part of is the creation of the H-Prize for 
hydrogen. I have continued to promote the use of innovation 
prizes.
    So can you update us on what has been done with the prizes 
authority so far in 2012 and what OSTP is doing to promote the 
use of prizes at agencies like the National Science Foundation?
    Dr. Holdren. Well, thank you for that question. First of 
all, we have issued a memorandum that went to all the 
departments and agencies making clear that they had the 
authority to use prize competitions to achieve the goals of the 
departments and agencies where that made sense. And we think--
and I think you agree from your own background in this domain--
that prizes and competitions are often an extremely efficient 
way to generate innovation because you end up only paying for 
success. You describe a goal but don't prescribe the ways to 
get there, and you draw on the innovation of a very wide--or 
the creativity of a very wide community to find the 
innovations.
    We now have prize competitions going on in something like 
40 different departments and agencies, including the NSF, 
including the DOD, the VA, the Department of Transportation, 
and many others. And the ones that have already come to 
completion have shown some quite remarkable results. I mean one 
that I am sure you know about is the Automotive X Prize, which 
was corporate money but DOE orchestration of the prize 
competition. There was $10 million in prizes for folks who 
could construct and demonstrate a vehicle that gets more than 
100 miles per gallon equivalent fuel economy. And three 
vehicles succeeded and split the prize money, but the 
interesting thing is the competitors invested $100 million in 
pursuit of $10 million in prizes. I call that leverage.
    Mr. Lipinski. And I thank you for that, and I think we both 
agree that it is certainly not a substitute for research grants 
but another way of trying to promote innovation in our country.
    A couple other things I wanted to touch on that were 
brought up earlier. First, very briefly I want to concur with 
Ms. Lofgren on the NIF and I am also very interested in NIF and 
what we are going to do in the continuation of that. And STEM 
education, as Co-Chair of the STEM Ed. Caucus, one thing 
particularly that I wanted to raise with you is the federal 
investment in formal science education, which has shrunk in 
recent years, and this year's NSF budget request, for example, 
included 22 percent reduction in Advancing Informal STEM 
Learning grant program. So I just want to ask do you expect 
informal education programs, including grant programs, to be an 
important part of future federal STEM education portfolio or 
are we going to continue to see this going down?
    Dr. Holdren. No, I think it will continue to be an 
important part. We are in the late stages of producing a STEM 
Education Strategic Plan that draws on the results of the 
inventory I mentioned before where, for the first time, we 
conducted a comprehensive inventory of all the Federal 
Government STEM ed. programs across all departments and 
agencies that do these things. We are already benefitting from 
some of the insights from that inventory in finding ways to 
expand programs that are more cost-effective and shrink some of 
those that are less cost-effective. But I would certainly not 
expect the informal education programs to go away. I think when 
the STEM Education Strategic Plan comes out fairly shortly, 
those programs will continue to have a role.
    Mr. Lipinski. Well, I certainly encourage you to continue 
including informal STEM ed. I know how important that was for 
me personally and for a lot of others and I look forward to 
seeing the federal STEM Education Strategic Plan later this 
year. Anything else you could tell--anything more specific 
about when this may come out or anything else you could tell us 
about that plan very briefly?
    Dr. Holdren. I believe that STEM Education Strategic Plan 
will be out by fall.
    Mr. Lipinski. Thank you.
    I yield back.
    Chairman Hall. The gentleman yields back.
    I thank Dr. Holdren for your testimony. And we may have 
other questions. I have some questions I will submit in writing 
and get them to you and hope within a couple of weeks we can 
leave the record open for that.
    And to Ms. Lofgren, it is my understanding that they have 
an agreement on the content of her request, and without 
objection, her request is granted.
    [The information may be found in Appendix 2.]
    Chairman Hall. And with that, Doctor, you are excused.
    This hearing is adjourned. We are adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
[GRAPHIC] [TIFF OMITTED] 74728.026

[GRAPHIC] [TIFF OMITTED] 74728.027

[GRAPHIC] [TIFF OMITTED] 74728.028

[GRAPHIC] [TIFF OMITTED] 74728.029

[GRAPHIC] [TIFF OMITTED] 74728.030

[GRAPHIC] [TIFF OMITTED] 74728.031

[GRAPHIC] [TIFF OMITTED] 74728.032

[GRAPHIC] [TIFF OMITTED] 74728.033

[GRAPHIC] [TIFF OMITTED] 74728.034

[GRAPHIC] [TIFF OMITTED] 74728.035

[GRAPHIC] [TIFF OMITTED] 74728.036

[GRAPHIC] [TIFF OMITTED] 74728.037

[GRAPHIC] [TIFF OMITTED] 74728.038

[GRAPHIC] [TIFF OMITTED] 74728.039

[GRAPHIC] [TIFF OMITTED] 74728.040

[GRAPHIC] [TIFF OMITTED] 74728.041

[GRAPHIC] [TIFF OMITTED] 74728.042

[GRAPHIC] [TIFF OMITTED] 74728.043

[GRAPHIC] [TIFF OMITTED] 74728.044

[GRAPHIC] [TIFF OMITTED] 74728.045

[GRAPHIC] [TIFF OMITTED] 74728.046

                               Appendix 2

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

Prepublication Copy: Managing for High-Quality Science and Engineering 
 at the NNSA National Security Laboratories: National Research Council
[GRAPHIC] [TIFF OMITTED] 74728.051

[GRAPHIC] [TIFF OMITTED] 74728.052

[GRAPHIC] [TIFF OMITTED] 74728.053

[GRAPHIC] [TIFF OMITTED] 74728.054

[GRAPHIC] [TIFF OMITTED] 74728.055

[GRAPHIC] [TIFF OMITTED] 74728.056

[GRAPHIC] [TIFF OMITTED] 74728.057

[GRAPHIC] [TIFF OMITTED] 74728.058

[GRAPHIC] [TIFF OMITTED] 74728.059

[GRAPHIC] [TIFF OMITTED] 74728.060

[GRAPHIC] [TIFF OMITTED] 74728.061

[GRAPHIC] [TIFF OMITTED] 74728.062

[GRAPHIC] [TIFF OMITTED] 74728.063

[GRAPHIC] [TIFF OMITTED] 74728.064

[GRAPHIC] [TIFF OMITTED] 74728.065

[GRAPHIC] [TIFF OMITTED] 74728.066

[GRAPHIC] [TIFF OMITTED] 74728.067

[GRAPHIC] [TIFF OMITTED] 74728.068

[GRAPHIC] [TIFF OMITTED] 74728.069


                                   

</pre></body></html>
